WAIVER

Supreme Court of the United States

No. 20-5637
Limmia Page v. New York
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
«Pease enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

x Iam a member of the Bar of the Supreme Court of the United States,

OC Lam not presently a member of the Bar of this Court. Should a response be requested,

the “pone will be filed by a Bar member.
Signature & Sh LAR

Date: - Seotem oe , O20
(Type or print) Name. \DAVvi 2 "A. HE RATA

O Ms. O Mrs,

Fim ERIC County a Boca Ofte,
Address_ QS Dela mare

City & State Buledo , N CU) "Y OY t Zip | YQOa
Phone (7 | \e) $58- 2 ql Y D

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAMK(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

: Erin As kulesus, Esa.
One Leqa| Rid Bureau of Butto-Lnc,

 

 

 

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
